            Audit Report



   Chicago Region Large Volume
Individual Representative Payee for
 the Social Security Administration




       A-15-13-13113 | May 2014
MEMORANDUM


Date:      May 23, 2014                                                       Refer To:

To:        Marcia R. Mosley
           Regional Commissioner
            Chicago
From:      Inspector General
Subject:   Chicago Region Large Volume Individual Representative Payee for the Social Security
           Administration (A-15-13-13113)

           The attached final report presents the results of our audit. Our objectives were to determine
           whether the (1) representative payee had effective safeguards over the receipt and disbursement
           of Social Security benefit payments and (2) Social Security benefit payments were used and
           accounted for in accordance with Social Security Administration policies and procedures.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment

           cc:
           Nancy Martinez, Associate Commissioner for Office of Income Security Programs
           Gary S. Hatcher, Senior Advisor for Records Management and Audit Liaison Staff
Chicago Region Large Volume Individual Representative
Payee for the Social Security Administration
A-15-13-13113
May 2014                                                                 Office of Audit Report Summary

Objectives                                Our Findings

To determine whether the                  The representative payee did not always adhere to SSA policies and
(1) representative payee had effective    procedures when handling the Social Security benefits she received
safeguards over the receipt and           on behalf of the beneficiaries in her care. We also found the payee
disbursement of Social Security benefit   did not use proper accounting practices, such as maintaining
payments and (2) Social Security          adequate supporting documentation for expenses paid to family
benefit payments were used and            members for services provided and purchases made on behalf of the
accounted for in accordance with          beneficiaries. In addition, we noted the payee collected
Social Security Administration (SSA)      guardianship fees from both the beneficiaries and a county court.
policies and procedures.                  We also have concerns about the payee’s financial stability for
                                          maintaining the payee practice.
Background
                                          Our Recommendations
Congress granted SSA the authority to
appoint representative payees for those   We recommend SSA:
beneficiaries who are incapable of
managing or directing the management      1. Refrain from placing additional beneficiaries with this
of their benefit payments. A                 representative payee until a thorough review of the payee’s
representative payee may be an               accounting and reporting practices is performed.
individual or an organization.
Representative payees receive and         2. Instruct the representative payee on the proper handling of
manage payments on behalf of these           benefit payments in accordance with SSA’s policies.
beneficiaries.
                                          3. Determine whether a new payee should be appointed or the
A representative payee may also act as       beneficiaries no longer need a payee in the noted cases of the
an individual’s guardian, conservator,       payee acting as conduit.
or both. A guardian has the power and
                                          4. Determine whether the payee is charging fees for guardian and
responsibility to make certain
                                             conservator services in accordance with SSA’s policy. If SSA
decisions about the individual’s care.
                                             determines these fees are inconsistent, it should ensure the
A court must appoint a payee as
                                             payee reimburses the beneficiary.
guardian or conservator. A guardian or
conservator may charge fees for their     5. Review the payee’s financial stability to determine whether the
services.                                    payee can continue providing representative services to the high
                                             volume of beneficiaries.
The representative payee under review
is an individual volume payee who         6. Develop procedures to require that high volume individual
served 165 beneficiaries. The                representative payees have bond coverage and financial credit
representative payee was the court-          risk reviews.
appointed guardian and/or conservator
for 106 beneficiaries she served.         SSA agreed with all of our recommendations.
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Questionable Representative Payee Practices ............................................................................2
           Payee Collected Unallowable Fees ......................................................................................3
           Possible Conduit Payee Situations .......................................................................................3
           Payee Rented Property to Beneficiaries ...............................................................................4
           Failure to Transfer Funds to New Payee..............................................................................4
           Failure to Report Changes in Living Arrangements ............................................................5
     Poor Accounting Practices over the Receipt and Disbursement of Social Security Benefits ....5
     Excessive Guardianship Fees .....................................................................................................7
     Financial Responsibility.............................................................................................................8
Conclusions ......................................................................................................................................9
Recommendations ............................................................................................................................9
Agency Comments .........................................................................................................................10
Other Matters .................................................................................................................................10
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Responsibilities of Representative Payees .......................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Representative Payee Comments ........................................................................ D-1
Appendix E – Major Contributors...............................................................................................E-1




Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)
ABBREVIATIONS
C.F.R.               Code of Federal Regulations

OASDI                Old-Age, Survivors and Disability Insurance

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

Pub.L. No.           Public Law Number

SSA                  Social Security Administration

SSI                  Supplemental Security Income

U.S.C.               United States Code




Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)
OBJECTIVES
Our objectives were to determine whether the (1) representative payee had effective safeguards
over the receipt and disbursement of Social Security benefit payments and (2) Social Security
benefit payments were used and accounted for in accordance with Social Security Administration
(SSA) policies and procedures.

BACKGROUND
A representative payee receives and disburses benefit payments on a beneficiary’s behalf.
Congress granted SSA the authority to appoint representative payees for those beneficiaries 1 who
are judged incapable of managing or directing the management of their benefit payments because
they have a mental or physical disability or are a child. 2 A representative payee may be an
individual or an organization. SSA selects representative payees for Old-Age, Survivors and
Disability Insurance (OASDI) beneficiaries and Supplemental Security Income (SSI) recipients
when representative payments would serve the individuals’ interests. Representative payees are
responsible for managing benefits 3 in the beneficiary’s best interest and ensuring benefit
payments are used for the beneficiary’s current maintenance, 4 including food, shelter, clothing,
medical care, and personal comfort items. See Appendix B for responsibilities of representative
payees.

A representative payee may also act as an individual’s guardian, conservator, or both. A
guardian generally has the power and responsibility to make certain decisions about the
individual’s care. For instance, a guardian may have the power to consent to medical treatment
for the beneficiary. A conservator generally handles an individual’s property and financial
affairs. A court must appoint a payee as guardian or conservator. A guardian or conservator
may charge fees for their services.

The representative payee under review is an individual volume payee, which is a payee that
administers benefits for 15 or more SSA beneficiaries. During our initial audit period,
April 1, 2012 to March 31, 2013, this representative payee served 165 SSA beneficiaries. The
representative payee was the court-appointed guardian and/or conservator for 106 beneficiaries
she served. A majority of the 165 beneficiaries suffered from a mental disorder.

In May 2013, we conducted a site visit at the representative payee’s office in SSA’s Chicago
Region. We noted the representative payee operated a guardianship business that received
payments to provide guardianship services to the beneficiaries. The payee collected a fee of



1
    The term “beneficiary” in this report refers to both OASDI beneficiaries and SSI recipients.
2
    Social Security Act §§ 205(j) and 1631(a)(2), 42 U.S.C. §§ 405(j) and 1383(a)(2).
3
    The term “benefits” in this report refers to both OASDI benefits and SSI payments.
4
    20 C.F.R. §§ 404.2040 and 416.640 Use of Benefit Payments.



Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)                1
approximately $60 from the beneficiaries for this service. The representative payee owned the
business and employed family members. 5

We reviewed 50 beneficiaries’ files from the total population for the period April 1, 2012
through March 31, 2013. During our review, we noted questionable fees and expenses in the
beneficiaries’ accounting records. We expanded the scope of our review to include the entire
population of 165 beneficiaries in the payee’s care from April 2012 through July 2013. For the
expanded population, we reviewed only the payee’s account ledgers noting cashier’s checks,
related party transactions, and questionable fees and charges (see Appendix A). During the audit
period, April 2012 through July 2013, the representative payee received approximately
$1.96 million in benefit payments for the beneficiary population.

RESULTS OF REVIEW
Although it appeared the representative payee provided a suitable level of care for the
beneficiaries, our review of records suggested the payee engaged in questionable practices that
conflicted with SSA policy. In addition, the payee did not always properly use and account for
the Social Security benefit payments she received on the beneficiaries’ behalf. We noted the
payee served as guardian or conservator for 64 percent of the beneficiaries in her care. As the
guardian/conservator, the payee is allowed to collect a fee. 6 However, we noted the payee
collected twice and sometimes three times the established fee amount. In addition, we have
concerns about the payee’s financial stability for maintaining the guardianship practice.

Questionable Representative Payee Practices
According to Federal regulations, 7 a representative payee is responsible for using the
beneficiary’s benefits in the beneficiary’s best interest and keeping the benefits separate from the
payee’s own funds. The payee should treat any interest earned as the beneficiary’s property and
notify SSA of any changes that could affect the benefit payment and/or the payee’s ability to
perform its responsibilities. During our review, we noted the representative payee engaged in
questionable practices that conflicted with SSA policy. We found the payee

      collected unallowable fees for representative payee services;

      acted as a conduit payee 8 for several beneficiaries in her care;

      rented property, which was owned by the payee or payee’s relative, to the beneficiaries;




5
    Family members for this report include children, grandchild, and siblings of the payee.
6
    SSA, POMS, GN 00602.040 (July 21, 2009).
7
    20 C.F.R. §§ 404.2035 and 416.635.
8
    SSA, POMS, GN 00608.044 (January 29, 1996).



Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)                2
     did not transfer all of a beneficiary’s funds to a new payee; and

     did not notify SSA when a beneficiary’s living arrangements changed, resulting in an
      overpayment to the beneficiary.

Payee Collected Unallowable Fees
SSA’s procedures prohibit individual representative payees from collecting a fee from SSA
benefits for representative payee services except in certain circumstances, such as court-ordered
fees including fees for serving as a court appointed legal guardian. 9 Although the representative
payee was a court-appointed guardian for most of the beneficiaries in her care and was therefore
allowed to collect guardianship fees, she inappropriately took fees from several beneficiaries
when she was not their legally appointed guardian. These fees ranged from $60 to $250, and the
payee classified them as “set up filing, bank account fee” in the accounting records. In
discussion with the payee, she stated the beneficiaries were aware she charged these fees. The
fees totaled $955 for these beneficiaries. According to SSA policy, the payee cannot collect fees
for such administrative items as setting up a beneficiary’s bank account if the payee acts as
representative payee only. 10

Possible Conduit Payee Situations
During our review, we noted the representative payee was turning over a substantial amount of
the monthly benefit payments to several beneficiaries and/or a third party. Conduit payees 11 turn
over the full amount of the benefit payment to the beneficiary, another person, or a facility.
Therefore, they do not exercise control over the funds and cannot fully account for how funds are
spent. The existence of a conduit payee is a concern because it could indicate the beneficiary's
current and immediate needs are not being fulfilled, the payee lacks interest in the beneficiary's
care, or the beneficiary no longer needs a payee.

During our review, the representative payee turned over a beneficiary’s benefit payment amount
to the beneficiary’s spouse. The payee did not maintain any type of accounting records for this
beneficiary. SSA records indicate the beneficiary’s spouse lived in a different State than the
beneficiary and the payee during our review period.

We also noted another beneficiary had moved to a noncontiguous State but remained in the
payee’s care. The payee only paid the beneficiary’s rent and turned over the remainder of the
benefit payment to the beneficiary. The payee had not traveled to visit the beneficiary’s new




9
 SSA, POMS, GN 00602.110 (March 5, 2002), GN 00602.040 (July 21, 2009); A Guide for Representative Payees,
SSA Publication No. 05-10076, January 2009.
10
 SSA, POMS, GN 00602.110 (March 5, 2002); A Guide for Representative Payees, SSA Publication
No. 05-10076, January 2009.
11
     SSA, POMS, GN 00608.044 (January 29, 1996).



Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)                      3
home. SSA policy12 states that SSA should consider the need for a successor payee if the payee
becomes geographically separated from the beneficiary by a considerable distance.

SSA should review these cases to determine whether a new payee should be appointed or a payee
is no longer needed.

Payee Rented Property to Beneficiaries
The payee and a relative (who also worked for the payee) rented housing to several beneficiaries.
The payee also served as legal guardian for these beneficiaries. The payee’s relative rented a
room to a beneficiary for $789 a month. For our review period, the payee paid her relative
$12,624 from the beneficiary’s account. This beneficiary was also required to purchase an air
conditioner for $500. The payee owns a trailer, which she rents to two other beneficiaries. The
payee charged each beneficiary $200 a month for rent on the trailer. This amount does not
include utilities or lot rental fee. The beneficiaries paid these expenses separately. In addition,
the payee charged one of the beneficiaries $600 to replace the water heater and floor repairs to
the trailer. She also charged this beneficiary $100 to purchase an air conditioner.

In addition, we noted for one beneficiary, several months of “rent payments” paid to the payee’s
grandchild from the beneficiary’s account. The payee employed her grandchild to maintain the
accounting records for her guardianship business.

According to SSA policy, 13 it will not certify benefit payments to a payee who is a creditor
unless certain relationships exist between the payee and beneficiary, such as, if the payee is a
legal guardian or legal representative. SSA policy specifies the payee applicant must show that
he/she poses no harm to the beneficiary, and the financial relationship poses no substantial
conflict of interest. We believe SSA should review these beneficiaries’ living situations, decide
whether it is appropriate for the payee and her relatives to rent property to beneficiaries in their
care, and determine whether payments for repairs and appliances should be charged to the
beneficiaries.

Failure to Transfer Funds to New Payee
We also noted the payee did not turn over a beneficiary’s full account balance when a new payee
was assigned. The payee acted as this beneficiary’s guardian and conservator. SSA policy
states, when a payee who has conserved funds for a beneficiary stops serving as the payee, the
payee generally must return those funds and interest earned to SSA. 14 SSA selected a new payee
for this beneficiary in March 2013. During our site visit, we noted the account balance for this
beneficiary was approximately $2,000. From April through June 2013, the payee continued
paying several bills for the beneficiary, including collecting guardianship fees of $60 per month.


12
     SSA, POMS, GN 00504.100 (March 29, 2006).
13
     SSA, POMS, GN 00502.135 (June 28, 2013).
14
     SSA, POMS, GN 00603.055 (December 6, 2010).



Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)                    4
As of June 2013, the account balance was approximately $600, and she had not transferred the
excess funds to the new payee. We believe the payee should have turned over the remaining
account balance to SSA or a new payee once all the beneficiary’s obligations were paid.

Failure to Report Changes in Living Arrangements
Representative payees are responsible for notifying SSA of any events that may affect a
beneficiary’s entitlement to benefits, including changes in living situations. According to SSA’s
A Guide for Representative Payees, a payee needs to inform SSA when the beneficiary moves,
especially if the beneficiary is receiving SSI. 15 This could result in the beneficiary receiving too
much in benefit payments. During our review, we noted two beneficiaries who incurred an
overpayment of their SSA benefits and were required to pay the funds back to SSA. These
overpayments occurred because there was a change in the beneficiaries’ living arrangements that
were not reported to SSA. For one of these beneficiaries, the overpayment was over $2,600.
Without timely notification of changes in beneficiaries’ circumstances, SSA is unable to adjust
payment amounts to avoid over- and underpayments for the beneficiaries.

These issues suggest the payee was not following SSA policy. SSA should review each of these
issues and determine whether any beneficiaries’ benefit payments were compromised and a new
payee should be appointed.

Poor Accounting Practices over the Receipt and Disbursement of
Social Security Benefits
Federal regulations 16 require that representative payees maintain detailed and accurate records of
all funds received and spent to provide a true accounting to SSA. The payee did not always
demonstrate sound accounting practices over the receipt and disbursement of the beneficiaries’
benefit payments during our review period. We found the representative payee did not

      record the beneficiaries’ transactions timely, which resulted in overdraft fees;
      maintain sufficient support for payments made to related parties;
      always issue and use cashier’s checks properly; and
      maintain a record of how benefit payments were used for one beneficiary for whom she
       collected paper checks for 8 months.

During our review, we noted the representative payee did not record financial transactions
timely, which resulted in bank fees for several beneficiaries. For example, the payee did not
record checks when they were issued. The representative payee only updated beneficiary records
to match the bank statements and did not perform monthly bank account reconciliations to



15
     A Guide for Representative Payees, SSA Publication No. 05-10076, ps.16-17, January 2009.
16
     20 C.F.R. §§ 404.2035 and 416.635.



Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)                 5
identify outstanding checks. When a payee does not reconcile or update the beneficiaries’
accounts timely, the payee does not have accurate account balances for each account. This can
lead to account overdrafts, duplicate payments, or missed payments. For our review period,
April 2012 through July 2013, overdraft fees totaled $1,031 for 21 beneficiaries.

During our review, we found that the representative payee employed immediate family members
as office staff. In addition, the representative payee’s other family members provided services to
86 beneficiaries. These types of transactions were considered related-party transactions.
Relationships between parties may enable one of the parties to exercise a degree of influence
over the other. 17 We noted the payee paid her relatives and herself $18,864 from beneficiaries’
funds for services. This included the beneficiary’s transportation to and from doctors’
appointments and shopping trips, tax preparation, cleaning, and moving expenses. Although the
payee did provide these services to the beneficiaries, we believe some of fees paid for these
services were high. For example, the payee’s relative billed two married beneficiaries separately
for tax services, and we believe the combined fee collected was excessive for filing a joint tax
return.

The payee did not maintain sufficient supporting documentation for these related-party
transactions. Because of the lack of supporting documentation for these expenses, the payee
cannot accurately show how she spent benefit payments or that she used those benefit payments
to meet the beneficiaries’ current needs. Although many of the payments ranged from $15 to
$50 and appeared to be reimbursement for mileage and purchases on the beneficiaries’ behalf,
the representative payee could not produce receipts for purchases or documentation of the
mileage and the purpose of travel.

By using related parties to provide the beneficiary these services, the representative payee may
not be getting the best possible rates for these types of services. The representative payee is
creating the risk that beneficiaries’ funds may not be used properly and in their best interest.

After reviewing the representative payee’s accounting records, we noted she periodically issued
cashier’s checks from the beneficiaries’ accounts. Cashier’s checks are issued by the bank.
Unlike personal checks, cashier’s checks immediately debit the account when the bank issues
them. For beneficiaries who receive SSI, there is a resource limit for eligibility. 18 We noted the
payee issued cashier’s checks from the beneficiaries’ accounts mainly to reduce large balances
thus ensuring the beneficiary could continue receiving SSI or state medical and housing
benefits. The representative payee told us she used cashier’s checks for pre-paid funeral
agreements and housing expenses for some of the beneficiaries. The representative payee was
able to provide supporting documentation for most of the cashier’s check transactions. In
addition, we did note the payee was holding three cashier’s checks, totaling $3,500 for at least
6 months, for one OASDI beneficiary.



17
 Related-party transaction definition, www.investorwords.com/6903/related_party_transaction.html and
www.allbusiness.com/glossaries/related-party-transaction/4954029-1.html.
18
     SSA, POMS, SI 01110.003 (December 8, 2010).



Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)                    6
As we reviewed one beneficiary’s accounting records, we found several months of accounting
sheets were missing. We questioned the representative payee about the missing accounting
sheets. The payee stated she began receiving the beneficiary's money in January 2013.
However, SSA records show the payee had been the beneficiary’s representative payee since
May 2010. According to Department of the Treasury records, the payee received and endorsed
paper checks for this beneficiary from April through December 2012. However, there is no
documentation of how the payee spent this money. We asked the payee about these checks and
she stated she signed the checks and turned them over to the county mental health office. We
confirmed this with the county mental health office. Federal regulations 19 require that
representative payees keep accurate and complete records of the funds received and spent to
determine whether the beneficiary’s current needs are being met. However, the payee did not
always follow these regulations.

Excessive Guardianship Fees
During the review period, the representative payee served as the court-appointed legal guardian,
conservator, or both for 107 20 beneficiaries in her care. According to SSA policy, 21 when an
individual is appointed as a legal guardian for a competent or incompetent beneficiary, part of
the beneficiary’s funds may be used for customary guardianship costs and court-ordered fees.
These fees may be collected provided the guardianship appears to be in the beneficiary’s best
interest; beneficiary’s personal needs are met first; and beneficiary’s funds would not be depleted
by the collection of guardianship fees. Per SSA policy, conservator and conservatorship are the
same as guardian and guardianship.

During our review, we noted the payee typically charged $60 per month as guardianship fees and
$60 per month as conservator fees. When the payee acted as both guardian and conservator, she
collected $120 in monthly fees. Of the 107 beneficiaries for whom the payee served as their
guardian or conservator, she collected $97,354 22 in fees from 94 of these beneficiaries during the
review period of April 2012 through July 2013.

Applicable law of the jurisdiction in which the representative payee serves entitles guardians and
conservators to reasonable compensation for services rendered. A representative of a county
court told us if a beneficiary does not have the funds available to pay a guardian or conservator
fee, the court would pay the fee to a court-appointed guardian or conservator. The court pays a
$60 monthly fee per indigent individual regardless of whether the guardian acts as guardian,
conservator, or both. For our review, we obtained bills the payee provided to the court. During
our review period, we noted the representative payee collected approximately $24,840 in



19
     20 C.F.R. §§ 404.2065 and 416.665.
20
  During our expanded review period, April 2013 to July 2013, the representative payee was appointed guardian/or
conservator for a beneficiary from our original sample.
21
     SSA, POMS, GN 00602.040 (July 21, 2009).
22
     This amount does not include the $18,864 discussed in the previous section.



Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)                                7
guardianship fees from county court for 51 beneficiaries in her care. In addition, we found the
payee collected guardian fees from 38 beneficiaries and the court in the same month. These
duplicate payments totaled $18,630. The court representative told us in the case of a duplicate
payment, the court would expect the payee to refund the court for the payments.

In addition, we noted the payee took guardian fees from beneficiaries that nearly depleted their
bank accounts. SSA policy states there are many variables that affect guardianship fees, which
makes it difficult to provide guidelines on what constitutes an excessive guardianship fee. 23 For
example, one beneficiary received a $37 SSI payment each month. Although this was the
beneficiary’s only source of income, the beneficiary had a nominal bank account balance that
enabled the representative payee to take more in fees than the monthly $37 SSI payment. The
representative payee collected a $60 guardianship fee from the beneficiary for several months
during our report period. In addition, the court paid the payee $60 per month to serve as the
guardian for 14 of the 16 months of our review period. The total fees paid to the payee from the
beneficiary’s account and the court was $1,260 for our review period of April 2012 through
July 2013. We believe this fee amount is excessive when considered in relation to the
beneficiary’s total income of $592 for the same time period.

Improper use of benefits occurs when a representative payee allocates benefits for the
beneficiary but not in the beneficiary’s best interests. 24 Misuse of benefits occurs when the
payee does not use the benefits for the beneficiary’s current and foreseeable needs. Misused
funds include unauthorized or excessive fees for representative payee services. 25 SSA should
determine whether the fees taken were excessive and rise to the level of improper use or misuse
of funds.

Financial Responsibility
The representative payee under review began receiving retirement benefits in August 2012 and is
under full retirement age. 26 SSA policy states that, before a beneficiary reaches full retirement
age, their retirement benefits will be reduced by half of their earnings in excess of the annual
earnings exempt amount. 27 For Tax Year 2012, the annual earnings exempt amount was
$14,640. 28 Based on our review of the representative payee’s self-employment earnings relative
to the guardian/conservator fees collected from the beneficiaries in her care, we have concerns
about her reported earnings. Therefore, we plan to refer this case to the Internal Revenue Service
for review.


23
     SSA, POMS, GN 00602.040 (July 21, 2009).
24
     SSA, POMS, GN 00602.130 (March 5, 2002).
25
     SSA, POMS, GN 00604.001 (April 24, 2012).
26
  SSA POMS RS 00615.003 (May 21, 2004) states for an individual born between 1/2/43 and 1/1/55, full retirement
age is 66 years. The payee will attain full retirement age in 2016.
27
     SSA POMS RS 02501.080 (April 27, 2011).
28
     SSA POMS RS 02501.025 (December 9, 2013).



Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)                          8
The payee incorporated her guardianship business in July 2010. She is named president of the
company, and her husband is named vice president. According to available information, the
representative payee and the payee’s spouse have separately filed for bankruptcy in the past
7 years. Given the fiduciary responsibilities of a representative payee, it may be inappropriate to
give those responsibilities to an individual who has claimed a personal bankruptcy.

SSA does not require that individual representative payees be bonded. Per SSA policy,
fee-for-service organizations are required to maintain bonding or insurance. Bonding constitutes
a bond or insurance contract that protects the representative payee and SSA from financial loss
caused by action of the organization, officers, or an employee of the organization. 29 Since the
payee under review has a large number of beneficiaries, SSA should consider requiring this
payee to become bonded. If the payee is bonded, SSA should ensure the bond is written
appropriately.

CONCLUSIONS
Our review determined the representative payee did not always adhere to SSA’s policies and
procedures when handling the Social Security benefits received on behalf of the beneficiaries in
her care. We also found the payee did not use proper accounting practices, such as maintaining
adequate supporting documentation for expenses paid to family members for services and
purchases made on behalf of the beneficiaries. In addition, we noted the payee collected
duplicate guardianship fees from both the beneficiaries and a county court.

RECOMMENDATIONS
We recommend SSA:

1. Refrain from placing additional beneficiaries with this representative payee until a thorough
   review of the payee’s accounting and reporting practices is performed.

2. Instruct the representative payee on the proper handling of benefit payments in accordance
   with SSA’s policies.

3. Determine whether a new payee should be appointed or the beneficiaries no longer need a
   payee for the noted cases of the payee acting as conduit.

4. Determine whether the payee is charging fees for guardian and conservator services in
   accordance with SSA’s policy. If SSA determines these fees are inconsistent, it should
   ensure the payee reimburses the beneficiaries.

5. Review the payee’s financial stability to determine whether the payee is able to continue
   providing representative services to the high volume of beneficiaries.


29
     SSA, POMS, GN 00506.105 (October 24, 2011).



Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)                9
6. Develop procedures to require that high volume individual representative payees have bond
   coverage and financial credit risk reviews.

AGENCY COMMENTS
SSA agreed with all of our recommendations. The full text of SSA’s comments is included in
Appendix C.

OTHER MATTERS
After our review, a field office informed us that a former beneficiary, whose disability was an
organic mental disorder, under the payee’s care filed a new claim for SSI payments. Field office
staff reviewed the beneficiary’s prior record, noting his payments ceased in February 2013
because of the determination that the beneficiary had possessed excess resources dating back to
December 2010, which resulted in a $17,844 overpayment.

According to field office staff, the excess resource in question was a land contract for the sale of
land and property. This property is the payee’s current residence. Evidence collected during the
field office appointment showed that in October 2007, the beneficiary and his spouse entered
into a contract to sell property to the payee and her spouse. At the time of this contract, the
beneficiary was in the payee’s care and continued to be until July 2011.

The title of the property is still in the beneficiary’s name. The beneficiary was denied SSI
benefits. The terms of the land contract specify a total sum to be paid by one initial down
payment and the balance paid by monthly payments. It appears that neither the payee nor the
beneficiary maintained personal records of the payments for the property. In addition, the payee
never informed SSA of this transaction while she served as the beneficiary’s payee, thus
incurring an overpayment on the beneficiary’s record.




Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)               10
                                       APPENDICES




Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objectives, we:

   Reviewed applicable sections of the Social Security Act, Federal regulations, and the Social
    Security Administration’s (SSA) policies and procedures pertaining to representative payees,
    guardians, and conservators.

   Reviewed prior Office of the Inspector General and SSA work in the representative payee
    area.

   Contacted SSA’s Chicago Regional Office and a field office to obtain background
    information and prior audits regarding the individual representative payee.

   Compared and reconciled a list of SSA beneficiaries in the representative payee’s care from
    the payee to a list obtained from SSA’s representative payee system.

   Reviewed the representative payee’s internal controls over the receipt and disbursement of
    Social Security benefits.

   Reviewed a sample of 50 beneficiaries: 25 beneficiaries for whom the representative payee
    served as both the representative payee and court-appointed guardian and/or conservator and
    25 beneficiaries for whom the representative payee served only as payee. For the period
    April 1, 2012 through March 31, 2013, we:

       Compared benefit amounts paid according to SSA’s record to the benefit payment
        recorded in the payee’s accounting records.

       Reviewed the beneficiaries’ bank statements to determine whether benefit payments were
        properly deposited.

       Reviewed beneficiary files for supporting documentation of expenses and personal
        spending.

   Expanded the scope of our review to the remaining population of beneficiaries. For these
    beneficiaries, we only reviewed the payee’s accounting records from April 2012 to July 2013
    and noted cashier’s checks, related-party transactions, and questionable fees and charges.

   Conducted site visits at two care facilities where several beneficiaries in the representative
    payee’s care reside. We interviewed several beneficiaries and three staff people to determine
    whether the payee was meeting the basic needs of the beneficiaries in her care.

We determined the computerized data used during our review were sufficiently reliable given
our objective, and the intended use of the data should not lead to incorrect or unintentional
conclusions.




Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)              A-1
We conducted our fieldwork in the Chicago Region, in May 2013 and finalized our analysis at
Headquarters from May through December 2013. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our finding and conclusion based on our audit
objectives.




Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)          A-2
Appendix B – RESPONSIBILITIES OF REPRESENTATIVE
             PAYEES
Representative payees are responsible for using benefits to serve the beneficiary’s best interests.
The responsibilities include the following. 1

     Determine the beneficiary’s current needs for day-to-day living and use his/her payments to
      meet those needs.

     Conserve and invest benefits not needed to meet the beneficiary’s current needs.

     Maintain account records of how the benefits are received and used.

     Report events to the Social Security Administration (SSA) that may affect the individual’s
      entitlement or benefit payment amount.

     Report any changes in circumstances that would affect their performance as a representative
      payee.

     Provide SSA an annual Representative Payee Accounting Report to account for benefits
      spent and invested.

     Return any payments to SSA to which the beneficiary is not entitled.

     Return conserved funds to SSA when no longer serving as the representative payee for the
      beneficiary.

     Be aware of any other income Supplemental Security Income recipients may have and
      monitor their conserved funds to ensure they do not exceed resource limits




1
    20 C.F.R. §§ 404.2035, and 416.635.



Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)                B-1
Appendix C – AGENCY COMMENTS

DATE:           April 15, 2014

TO:             Office of Inspector General
                Office of Audit

FROM:           Regional Commissioner
                Chicago

SUBJECT: Signed OIG Draft Report (A-15-13-13113)--REPLY (Your email of
April 4, 2014)

We appreciate the opportunity to review your findings during your audit of a large volume
Individual Representative Payee for Social Security Administration (SSA).

We agree with the recommendations in the draft report. Once the detailed case information (i.e.,
SSNs in question and name of the payee, etc.) are released from OPSOS, the Chicago Region
will address accordingly.

If you or members of your staff have questions, they may contact Victoria Wallace Program
Specialist, RSI Team, at (312) 575-4208.

                                                  /s/

                                          Marcia R. Mosley




Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)         C-1
Appendix D – REPRESENTATIVE PAYEE COMMENTS




Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)   D-1
Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)   D-2
Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)   D-3
Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)   D-4
Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)   D-5
Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)   D-6
Appendix E – MAJOR CONTRIBUTORS
Victoria Vetter, Director, Financial Audit Division

Judith Kammer, Audit Manager

Kali Biagioli, Senior Auditor




Chicago Region Large Volume Individual Representative Payee for SSA (A-15-13-13113)   E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
